     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
October 27, 2011

Report Number: A-05-10-00074

Ms. Sandy Miller
President
National Government Services
8115 Knue Road
Indianapolis, Indiana 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Medicare Part A Administrative Costs for the Period
October 1, 2006, Through September 30, 2007 at National Government Services—Medicare
Contractor Number 00450. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-10-00074 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandy Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  AUDIT OF MEDICARE PART A
  ADMINISTRATIVE COSTS FOR
 THE PERIOD OCTOBER 1, 2006,
 THROUGH SEPTEMBER 30, 2007
  AT NATIONAL GOVERNMENT
    SERVICES—MEDICARE
  CONTRACTOR NUMBER 00450



                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-05-10-00074
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries (FIs) that process and pay Medicare claims submitted by
health care providers. Contracts between CMS and the Medicare contractors define the functions
to be performed and provide for the reimbursement of allowable administrative costs incurred in
the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (FACP) reporting Medicare administrative costs incurred during the year. The FACP and
supporting data provide the basis for the CMS contracting officer and contractor to negotiate a final
settlement of allowable administrative costs. When claiming costs, Medicare contractors must
follow cost reimbursement principles contained in Part 31 of the Federal Acquisition Regulation
(FAR) and other applicable criteria.

Until December 2006, United Government Services was the Medicare contractor under CMS’
Medicare contractor number 00450 and processed Medicare Part A claims for providers in four
States. In January 2007, National Government Services assumed Medicare operations of the United
Government Services. National Government Services reported Medicare administrative costs
totaling $83,450,918 in its FACP for October 1, 2006 through, September 30, 2007 (FY 2007).

The name "National Government Services" used in this report refers to the current Medicare
contractor National Government Services and its predecessor United Government Services.

OBJECTIVE

Our objective was to determine whether administrative costs National Government Services
reported on its FACP for FY 2007 were reasonable, allowable, and allocable and in compliance
with the FAR and other applicable criteria.

SUMMARY OF FINDINGS

Administrative costs reported by National Government Services on its FY 2007 FACP were
generally reasonable, allowable, and allocable and in compliance with the FAR and other
applicable criteria. However, National Government Services reported costs totaling $50,282 for
fringe benefits, electronic data processing equipment, outside professional services, telephone
and telegraph, postage and express, and other costs that are unallowable because they were not
adequately supported. We attribute the unallowable costs to weaknesses in National
Government Services’ internal controls for assuring that costs reported on its FACP are fully
supported with adequate documentation.




                                                  i
RECOMMENDATIONS

We recommend that National Government Services:

   •   decrease its FY 2007 FACP by $50,282 to reflect the unallowable costs and

   •   strengthen its internal controls to assure that all costs reported on its FACP are fully
       supported with adequate documentation.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services concurred with our
findings. National Government Services’ comments appear in their entirety as Appendix C.




                                                 ii
                                                 TABLE OF CONTENTS


                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................1
              Objective ......................................................................................................1
              Scope ............................................................................................................1
              Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................2

          UNALLOWABLE COSTS .....................................................................................3

          RECOMMENDATIONS .........................................................................................3

          NATIONAL GOVERNMENT SERVICES COMMENTS ....................................4

APPENDIXES

          A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
             PROPOSAL BY COST CLASSIFICATION

          B: OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
             ADJUSTMENTS

          C: NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   iii
                                            INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries (FIs) that process and pay Medicare claims submitted by
health care providers. 1 Contracts between CMS and the Medicare contractors define the
functions to be performed and provide for the reimbursement of allowable administrative costs
incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (FACP) reporting Medicare administrative costs incurred during the year. The FACP and
supporting data provide the basis for the CMS contracting officer and contractor to negotiate a final
settlement of allowable administrative costs. When claiming costs, Medicare contractors must
follow cost reimbursement principles contained in Part 31 of the Federal Acquisition Regulation
(FAR) and other applicable criteria.

Until December 2006, United Government Services was the Medicare contractor under CMS’
Medicare contractor number 00450 and processed Medicare Part A claims for providers in four
States. In January 2007, National Government Services assumed Medicare operations of the United
Government Services. National Government Services reported Medicare administrative costs
totaling $83,450,918 in its FACP for October 1, 2006, through September 30, 2007 (FY 2007).

The name "National Government Services" used in this report refers to the current Medicare
contractor National Government Services and its predecessor United Government Services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether administrative costs National Government Services
reported on its FACP for FY 2007 were reasonable, allowable, and allocable and in compliance
with the FAR and other applicable criteria.

Scope

Our review covered the period October 1, 2006, through September 30, 2007 (FY 2007). For
this period, National Government Services reported Medicare Part A administrative costs
totaling $83,450,918. This total included pension costs of $1,094,228 and post-retirement costs
of $102,425 that we did not review because pension and post-retirement costs will be the subject
of a separate review.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the Medicare Part A and Part B workloads to Medicare administrative contractors between
October 2005 and October 2011.

                                                       1
We reviewed National Government Services’ internal controls related to the claiming of cost on
the FACP. We limited our review of internal controls to those controls necessary to achieve our
audit objective.

We conducted fieldwork at National Government Services’ office in Louisville, Kentucky.

Methodology

To accomplish the objective, we:

   •   reviewed applicable Federal laws, regulations, and guidelines;

   •   reviewed National Government Services’ contract with CMS;

   •   reviewed National Government Services external audit reports for calendar years 2006
       and 2007 and Office of Inspector General (OIG) audit report for FY 2006;

   •   interviewed National Government Services officials regarding the cost accumulation
       processes for its FACP and cost allocation systems;

   •   reconciled line item expenses on the FACP and cost classification report to National
       Government Services’ accounting records;

   •   tested costs for reasonableness, allowability, and allocability by reviewing contracts and
       agreements and by judgmentally selecting journal entries, invoices, expense vouchers and
       reports, payroll journals, corporate bonus plans, and personnel records; and

   •   reviewed total compensation paid to the five highest paid executives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Administrative costs reported by National Government Services on its FY 2007 FACP were
generally reasonable, allowable, and allocable and in compliance with the FAR and other
applicable criteria. However, National Government Services reported costs totaling $50,282 for
fringe benefits, electronic data processing equipment, outside professional services, telephone
and telegraph, postage and express, and other costs that are unallowable because they were not
adequately supported. We attribute the unallowable costs to weaknesses in National
Government Services’ internal controls for assuring that costs reported on its FACP are fully
supported with adequate documentation.


                                               2
UNALLOWABLE COSTS

National Government Services could not provide adequate documentation to support fringe
benefit pharmacy costs of $31,421; electronic data processing equipment costs of $178;
telephone and telegraph costs of $3,992; postage and express costs of $1,991; and other costs
(employee moving expenses) of $5,186 that it reported on its FY 2007 FACP.

Pursuant to FAR 31.201–2 (d):

        A contractor is responsible for accounting for costs appropriately and for
        maintaining records, including supporting documentation, adequate to
        demonstrate that costs claimed have been incurred, are allocable to the contract,
        and comply with applicable cost principles in this subpart and agency
        supplements. The contracting officer may disallow all or part of a claimed cost
        that is inadequately supported.

Also, National Government Services could not support outside professional services costs of
$7,514 on its FY 2007 FACP. Specifically, National Government Services was unable to
provide contractual agreements (e.g., description of the services, estimate of time required, rate
of compensation, and termination provisions) and invoices to support costs it allocated to
Medicare.

Pursuant to FAR 31.205-33:

        (f) Fees for services rendered are allowable only when supported by evidence of
        the nature and scope of services furnished . . . . Evidence necessary to determine
        that work performed is proper and does not violate law or regulation shall
        include --

               (1) Details of all agreements (e.g., work requirements, rate of compensation, and
               nature and amount of other expenses, if any) with the individuals or organizations
               providing the services and details of actual services performed…

In the absence of adequate supporting documentation, these costs are unallowable. We attribute
the unallowable costs to weaknesses in National Government Services’ internal controls for
assuring that costs reported on its FACP are fully supported with adequate documentation.

RECOMMENDATIONS

We recommend that National Government Services:

    •   decrease its FY 2007 FACP by $50,282 to reflect the unallowable costs and

   •    strengthen its internal controls to assure that all costs reported on its FACP are fully
        supported with adequate documentation.


                                                  3
NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services concurred with our
findings. National Government Services’ comments appear in their entirety as Appendix C.




                                             4
APPENDIXES
        APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST 

                    PROPOSAL BY COST CLASSIFICATION 



              Cost Category                                           Total Costs Claimed
              Salaries and Wages                                                    $45,708,279
              Fringe Benefits                                                        19,570,213
              Facilities or Occupancy                                                 5,092,482
              Electronic Data Processing Equipment                                    1,675,300
              Subcontractors                                                          4,295,438
              Outside Professional Services                                           1,630,590
              Telephone & Telegraph                                                   1,406,303
              Postage & Express                                                       4,494,479
              Furniture & Equipment                                                     766,159
              Materials & Supplies                                                      612,152
              Travel                                                                  1,087,193
              Return on Investment                                                      226,510
              Miscellaneous                                                           1,471,622
              Other                                                                     153,986
              Other Adjustments (Credits)                                           (4,739,788)
              Total Costs                                                          $83,450,918
              Forward Funding l
              Total Costs Claimed on Final                                                   °
              Administrative Cost Proposal                                         $83,450,918
              OIG Recommended Ad.iustments*                                           (50,282)
              Total Costs after Ad.justments                                       $83,400,636



         OIG = Office of Inspector General

         *See Appendix B




1 National   Government Services did not report any Forward Funding costs.
APPENDIX B: OFFICE OF INSPECTOR GENERAL
       RECOMMENDED COST ADJUSTMENTS


                                       Total Part A
                                       Adjustments
Cost Category                           (FY 2007)
Fringe Benefits                               $31,421
Electronic Data Processing Equipment              178
Outside Professional Services                   7,514
Telephone and Telegraph                         3,992
Postage and Express                             1,991
Other                                           5,186
Total OIG Recommended Adjustments             $50,282
APPENDIX C: NATIONAL GOVERNMENT SERVICES COMMENT 





    tional Government
        Services.,
A CMS Conimelea Agent                                                                   Medicare
Nationa] Government     St:'rvil'(~~,   Inc
w\yw,NGShh'dk('lJ(.:\('oJll



August 22, 2011

Mr. James M. Barton
Acting Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

Reference: Report Number A-05-10-00074 - Audit of Medicare Part A Administrative Costs for the
Period October 1, 2006 Through September 30, 2007 at National Government Services - Medicare
Contractor Number 00450

Dear Mr. Barton:

We have reviewed the draft audit report referenced above and concur with the findings identified in
the report. Thank you for the opportunity to review and respond to the draft report. If you have any
further questions, I can be reached at 414-459-5606 or via email at

Sincerely,
                                              Digitally signed by Todd \Iv, Reiger
                                              DN: cll=Todd W. Reiger, o=National
                                              Government Services, Inc" ou::oFinance,
                                              email:=todd.reiger@wellpoint.com.c=US
                                              Date: 20 11.08.22 17:27:35 -05'00'

Todd W. Reiger, CPA
Chief Financial Officer, Medicare Operations

CC: 	                Sandy Miller
                     Michael Kapp
                     Jeff Hannah
                     Wendy Perkins
                     Jim Elmore
                     Jason Brauer
                     Kathy Bissell
                     Martha Nelson
                     Linda Lenzi-Radek - OIG
                     Stephen SlamaI' - OIG
